No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
ROBERT BERNAL, JR.,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Robert Bernal, pursuant to Title 18, United States Code,
Section 3006A(d)(6) and Rule 39 of the United States Supreme Court, asks leave
to file the attached Petition for Writ of Certiorari without prepayment of costs,
and to proceed in forma pauperis. Pursuant to an appointment under the
Criminal Justice Act of 1964, as amended, the Federal Public Defender's Office
was appointed to represent the Petitioner in the United States District Court
for the Western District of Pennsylvania and in the United States Court of
Appeals for the Third Circuit.
DATED: July 30, 2020

Respectfully submitted,

/s/ Lisa B. Freeland

LISA B. FREELAND
Federal Public Defender
Counsel of Record
SAMANTHA L. STERN
Assistant Federal Public Defender
Suite 1500, 1001 Liberty Avenue
Pittsburgh, Pennsylvania 15222
(412) 644-6565

